—
|

C@OCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tists contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1088

DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,

as parents and next friends of A.N. and R.N.,

Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR PETITIONERS,
JOINT APPENDIX and STATEMENT OF COST in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 12997 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

he ineacn| WOTARY Stats of Nebraska )dcaw- &v CLL
iwose RENEE J. Aen cterscos .

1m. Exp. September 5, 2023
Notary Public Affiant

 

41209
